<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2019</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]



 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2019

                              ----------                              


                       WEDNESDAY, APRIL 25, 2018

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:06 p.m. in room SD-430, Dirksen 
Senate Office Building, Hon. Lamar Alexander (chairman) 
presiding.
    Present: Senators Alexander, Murkowski, and Feinstein.

                   U.S. NUCLEAR REGULATORY COMMISSION

STATEMENT OF HON. KRISTINE SVINICKI, CHAIRMAN
ACCOMPANIED BY:
        HON. JEFF BARAN, COMMISSIONER
        HON. STEPHEN G. BURNS, COMMISSIONER


              opening statement of senator lamar alexander


    Senator Alexander. The Subcommittee on Energy and Water 
Development, please come to order.
    Today's hearing will review the Administration's fiscal 
year 2019 budget request for the U.S. Nuclear Regulatory 
Commission. This is the third of the Subcommittee's three 
budget hearings this year.
    Over the past 2 weeks we've heard from the Department of 
Energy, the Army Corps of Engineers and the Bureau of 
Reclamation about their funding requests.
    Senator Feinstein and I will each have an opening 
statement. I'll then recognize each Senator for up to 5 minutes 
for an opening statement, alternating between the majority and 
minority, in the order in which they arrive.
    We'll then turn to Chairman Svinicki to present testimony 
on behalf of the Nuclear Regulatory Commission.
    At the conclusion of the Chairman's testimony, I will then 
recognize Senators for 5 minutes of questions each.
    Senator Feinstein has to be at another Committee meeting at 
3:30, so we will adjourn by then, so that we stay on schedule.
    First, I would like to thank our witnesses for being here 
today and also Senator Feinstein, who is a joy to work with on 
the appropriations process.
    I'm very pleased with the fiscal year 2018 Energy and Water 
Appropriations bill, which highlighted our priorities. That 
bill provided a record level of funding for the Office of 
Science and the Corps of Engineers, supported supercomputing, 
maintained the Nation's nuclear weapons stockpile, and cut 
wasteful spending. I look forward to working with Senator 
Feinstein on another strong bill this year.
    Our witnesses today include Kristine Svinicki, Chairman of 
the Nuclear Regulatory Commission; Commissioner Jeff Baran; 
Commissioner Stephen Burns.
    Commissioner Baran's term will be up June 30, at which 
point the Commission will have only two members and will lose 
its quorum.
    President Trump has re-nominated Commissioner Baran and has 
also nominated David Wright and Annie Caputo to serve in the 
two open positions on the Commission.
    The Yucca Mountain controversy has been the most 
significant delay in confirming these nominees, but I hope they 
can all be confirmed so that the Commission does not lose a 
quorum. While Chairman Svinicki and Commissioner Burns are 
capable and reasonable leaders, the Commission functions best 
when it is at full strength.


                    fiscal year 2019 budget request


    We're here today to review the 2019 budget request.
    The Nuclear Regulatory Commission's job is very important. 
It oversees our 99 nuclear reactors, which provide 20 percent 
of our Nation's electricity and more than half of our carbon 
free electricity.
    Nuclear power is our best source of inexpensive, carbon-
free, baseload power, and is important for our national 
security and competitiveness.
    The Nuclear Regulatory Commission's budget request this 
fiscal year is $971 million, about $35 million more than 
Congress provided last year. The increased request includes 
$47.7 million for the Yucca Mountain licensing process.
    It's important to understand that $815 million of the 
Commission's budget comes from fees paid by utilities and other 
facilities that are licensed to possess and use nuclear 
materials.
    It's become increasingly difficult for the nuclear industry 
to compete with other sources of electricity. One of the 
concerns is the amount of regulatory fees charged by the 
Commission.
    So, over the last 4 fiscal years, we have worked with the 
Commission to reduce its overall budget by about $100 million, 
which represents about a 10 percent reduction, to more closely 
reflect its actual workload while maintaining its gold standard 
of safety.
    These savings are important because they lower the fees 
utilities must pay, and these savings can be passed on to 
customers.
    These reductions have not been arbitrary. They represent 
the type of oversight we are supposed to do.
    To ensure nuclear power will continue to play a significant 
role in our electricity generation, my focus will be on one, 
licensing small reactors and advanced reactors.
    Two, safely extending licenses for existing reactors.
    Three, licensing facilities for used nuclear fuel and 
solving the nuclear waste stalemate.
    And four, accident tolerant fuel.


                             nuclear waste


    Senator Feinstein and I have worked on the nuclear waste 
stalemate for years.
    This year's budget request includes $47 million to restart 
the licensing process for Yucca Mountain. This is the next step 
the Department must follow to determine whether it can begin 
construction of Yucca Mountain.
    I strongly believe that Yucca Mountain can and should be 
part of the solution to the nuclear waste stalemate. Federal 
law designates Yucca Mountain as the Nation's repository for 
used nuclear fuel, and the Commission's own scientists have 
told us that we can safely store nuclear waste there for up to 
one million years.
    But even if we had Yucca Mountain open today, we would 
still need to look for another permanent repository. We have 
more than enough used fuel to fill Yucca Mountain to its legal 
capacity.
    The quickest, and probably the least expensive, way for the 
Federal Government to start to meet its used nuclear fuel 
obligations is for the Department of Energy to contract with a 
private storage facility for used nuclear fuel.
    I understand that two private companies have submitted 
applications for consolidated storage facilities, one in Texas, 
one in New Mexico. I'll be asking some questions about that 
today.
    I want to make sure that the Commission has the resources 
it needs in fiscal year 2019 to review the applications for 
consolidated storage because we have to start working together 
to solve the stalemate, if we want a strong nuclear industry.
    Senator Feinstein and I, along with the leaders of the 
Committee on Energy and Natural Resources, have a bill to 
implement the recommendations of the Blue Ribbon Commission on 
America's Nuclear Future, which include using temporary private 
storage facilities, and we're working to reintroduce that 
legislation this year.


            safely extending licenses for existing reactors


    Instead of building more windmills, which produce 17 
percent of our carbon-free electricity, or solar farms, which 
produce four percent, the best way to make sure the U.S has a 
reliable source of inexpensive, efficient, carbon-free 
electricity is to extend the licenses of our existing reactors, 
which produce 60 percent of our carbon-free electricity, when 
it is safe to do so.
    Most of our 99 reactors have already extended their 
operating licenses from 40 to 60 years, although some have 
decided to close prematurely for economic reasons. Some 
utilities are beginning the process to extend their license 
from 60 to 80 years.
    Recently, the Turkey Point nuclear plant in Florida was the 
first to apply to the Commission to extend its license for an 
additional 20 years, what we call ``subsequent license 
renewal.''
    The Commission has spent the past several years developing 
the framework to review these types of license renewals and to 
make sure they can operate safely.
    I want to make sure that the Commission has the resources 
it needs to review Turkey Point's application.


                         licensing new reactors


    In addition to our existing reactors, the Commission also 
needs to be ready to review applications for new reactors, 
particularly small modular reactors and advanced reactors. 
These new technologies represent the future of nuclear power.
    In fiscal year 2017, we provided enough funding to complete 
the Small Modular Reactor Licensing Technical Support program 
at the Department of Energy.
    NuScale, which was one of the technologies selected in that 
program, filed an application for design certification of a 
small reactor in 2016.
    A utility group has been working with NuScale and Idaho 
National Lab to build and demonstrate a small reactor in Idaho.
    The Tennessee Valley Authority has also submitted an 
application to the Commission for a permit to build and 
demonstrate a small modular reactor at the Clinch River site.
    These applications to build and demonstrate small modular 
reactors are an important step, and we need to make sure the 
Commission has the resources it needs to review the application 
and that it's ready to review applications for advanced 
reactors.
    The fiscal year 2018 Omnibus included $10 million for the 
Commission to prepare to review advanced reactor designs, and I 
understand the current budget request includes $10.3 million 
for fiscal year 2019.
    I'd like to know what the Commission plans to do with the 
funding Congress provided for an advanced reactor so that we 
can make sure the development stays on track.


                         accident tolerant fuel


    And finally, accident tolerant fuel.
    In 2012 after Fukushima, Congress authorized a program to 
improve safety in the event of accidents in reactors or spent 
fuel pools.
    As a result, several companies have been developing 
accident tolerant fuels in collaboration with National 
Laboratories. These fuels seem to represent a significant step 
forward in safety as well as cost savings.
    The National Laboratories have modeling and simulation 
tools that can validate the use of these new fuels. For 
example, Oak Ridge has used its high-performance computing 
capability to develop the Consortium for Advanced Simulation of 
Light Water Reactors.
    I'd like to understand how the Commission is leveraging 
those tools in its licensing process.
    [The statement follows:]
             Prepared Statement of Senator Lamar Alexander
    First, I would like to thank our witnesses for being here today, 
and also Senator Feinstein, with whom I have the pleasure to work again 
this year to draft the Energy and Water Appropriations bill.
    I am very pleased with the fiscal year 2018 Energy and Water 
Appropriations bill, which highlighted my priorities. That bill 
provided a record level of funding for the Office of Science and the 
Corps of Engineers, supported supercomputing, maintained the Nation's 
nuclear weapons stockpile, and cut wasteful spending. I look forward to 
working with Senator Feinstein on another strong bill this year.
    Our witnesses today include Kristine Svinicki, Chairman of the 
Nuclear Regulatory Commission; Commissioner Jeff Baran; and 
Commissioner Stephen Burns.
    Commissioner Baran's term will be up on June 30, at which point the 
Commission will have only two members and will lose its quorum.
    President Trump has re-nominated Commissioner Baran and has also 
nominated David Wright and Annie Caputo to serve in the 2 open 
positions on the Commission.
    The Yucca Mountain controversy has been the most significant delay 
in confirming these nominees, but I hope they can all be confirmed so 
that the Commission does not lose a quorum. While Chairman Svinicki and 
Commissioner Burns are capable and reasonable leaders, the Commission 
functions best when it is at full strength.
    We're here today to review the administration's fiscal year 2019 
budget request for the U.S. Nuclear Regulatory Commission, the 
independent Federal agency responsible for regulating the safety of our 
Nation's commercial nuclear power plants and other civilian uses of 
nuclear material.
    The Nuclear Regulatory Commission's job is very important. It 
oversees our 99 nuclear power reactors, which provide 20 percent of our 
Nation's electricity and more than half of our carbon- free 
electricity.
    Nuclear power is our best source of inexpensive, carbon-free, 
baseload power, and is important for our national security and 
competitiveness.
    The Nuclear Regulatory Commission's budget request this fiscal year 
is $971 million, which is about $35 million more than Congress provided 
last year. The increased request includes $47.7 million for the Yucca 
Mountain licensing process.
    It is important to understand that $815 million of the Commission's 
budget comes from fees paid by utilities and other facilities that are 
licensed to possess and use nuclear materials.
    It has become increasingly difficult for the nuclear industry to 
compete with other sources of electricity, and one of the concerns was 
the amount of regulatory fees charged by the Commission.
    So over the last four fiscal years, we have worked with the 
Commission to reduce its overall budget by about $100 million, which 
represents about a 10-percent reduction, to more closely reflect its 
actual workload while maintaining its gold standard of safety.
    These savings are important because they lower the fees utilities 
must pay the Commission, and these savings can be passed on to 
utilities' customers.
    These reductions have not been arbitrary and represent the type of 
oversight that we are supposed to do. Our subcommittee has only reduced 
the Commission's budget in areas that the Commission has identified as 
unnecessary to its important safety mission.
    To ensure nuclear power will continue to play a significant role in 
our Nation's electricity generation, I'd like to focus my questions on 
four main areas: Licensing small modular and advanced reactors; safely 
extending licenses for existing reactors; licensing facilities for used 
nuclear fuel and solving the nuclear waste stalemate; and Accident 
Tolerant Fuel.
    Senator Feinstein and I have been working on solving the nuclear 
waste stalemate for years, and I'd like to take the opportunity to 
compliment Senator Feinstein on her leadership and her insistence that 
we find a solution to this problem.
    This year's budget request for the Nuclear Regulatory Commission 
includes $47.7 million to restart the licensing process for the Yucca 
Mountain repository. This is the next step the Department of Energy 
must follow to determine whether it can begin construction of Yucca 
Mountain.
    I strongly believe that Yucca Mountain can and should be part of 
the solution to the nuclear waste stalemate. Federal law designates 
Yucca Mountain as the Nation's repository for used nuclear fuel, and 
the Commission's own scientists have told us that we can safely store 
nuclear waste there for up to one million years.
    But even if we had Yucca Mountain open today, we would still need 
to look for another permanent repository. We have more than enough used 
fuel to fill Yucca Mountain to its legal capacity.
    The quickest, and probably the least expensive, way for the Federal 
Government to start to meet its used nuclear fuel obligations is for 
the Department of Energy to contract with a private storage facility 
for used nuclear fuel.
    I understand that two private companies have submitted applications 
to the NRC for consolidated storage facilities, one in Texas and one in 
New Mexico. I'll be asking some questions about that today.
    I want to make sure that the Commission has all the resources it 
needs in fiscal year 2019 to review the applications for consolidated 
storage facilities because we have to start working together to solve 
the nuclear waste stalemate if we want a strong nuclear industry.
    Senator Feinstein and I, along with the leaders of the Committee on 
Energy and Natural Resources, have a bill to implement the 
recommendations of the Blue Ribbon Commission on America's Nuclear 
Future, which include using temporary private storage facilities, and 
we're working to reintroduce the legislation this year.
    Instead of building more windmills, which only produce 17 percent 
of our carbon-free electricity, or solar farms, which only produce 4 
percent of our carbon-free electricity, the best way to make sure the 
United States has a reliable source of inexpensive, efficient, carbon-
free electricity is to extend the licenses of our existing nuclear 
reactors--which produce 60 percent of our carbon-free electricity--if 
it is safe to do so.
    Most of our 99 reactors have already extended their operating 
licenses from 40 to 60 years (although many have decided to close 
prematurely for economic reasons) and some utilities are beginning the 
process to extend their licenses from 60 to 80 years.
    Recently, the Turkey Point nuclear plant in Florida was the first 
to apply to the Commission to extend its license for an additional 20 
years--what you call ``subsequent license renewal.''
    The Commission has spent the past several years developing the 
framework to review these types of license renewal applications to make 
sure the reactors can continue to operate safely.
    I want to make sure that the Commission has the resources it needs 
to review Turkey Point's application and any other applications it 
expects to receive in fiscal year 2019.
    In addition to our existing reactors, the Commission also needs to 
be ready to review applications for new reactors, particularly small 
modular reactors and advanced reactors. These new technologies 
represent the future of nuclear power.
    In fiscal year 2017, we provided enough funding to complete the 
Small Modular Reactor Licensing Technical Support program at the 
Department of Energy.
    NuScale, which was one of the technologies selected in that 
program, filed an application for design certification of a small 
modular reactor with the Commission in December of 2016.
    A utility group has been working with NuScale and Idaho National 
Laboratory to build and demonstrate a small modular reactor in Idaho.
    TVA has also submitted an application to the Commission for a 
permit to build and demonstrate a small modular reactor at the Clinch 
River site in Tennessee.
    The applications to build and demonstrate small modular reactors is 
an important step, and we need to make sure the Commission has the 
resources it needs to review the applications.
    I also want to make sure the Commission is ready to review 
applications for advanced reactors.
    The fiscal year 2018 Omnibus included $10 million for the 
Commission to prepare to review advanced reactor designs, and I 
understand the current budget request includes $10.3 million for fiscal 
year 2019.
    I'd like to know what the Commission plans to do with the funding 
Congress provided for advanced reactors so that we can make sure the 
development of advanced reactors stays on track.
    In 2012, after Fukushima, Congress authorized a program to improve 
safety in the event of accidents in reactors or spent fuel pools.
    As a result, several companies have been developing accident 
tolerant fuels in collaboration with the National Laboratories. These 
fuels seem to represent a significant step forward in safety as well as 
cost savings for the industry.
    The National Laboratories have modeling and simulation tools that 
can validate the use of these new fuels. For example, Oak Ridge 
National Laboratory has used its high performance computing capability 
to develop the Consortium for Advanced Simulation of Light Water 
Reactors (CASL).
    I'd like to understand how the Commission is leveraging those tools 
in its licensing process, so I'll be asking questions about that today.
    I look forward to working with the Commission as we begin putting 
together our Energy and Water Appropriations bill for fiscal year 2019, 
and also with Senator Feinstein, who I will now recognize for her 
opening statement.
    Senator Alexander. I look forward to working with the 
Commission as we begin putting together our Energy and Water 
Appropriation bills for 2019, and also with Senator Feinstein, 
who I now recognize for her opening statement.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Thank you very much, Mr. Chairman for 
those excellent remarks.
    And as you know, I very much value this relationship and 
you've been a great Chairman and I've been so happy to be able 
to work with you.
    I'm going to speak in a slightly different direction. It 
bears on the NRC's (Nuclear Regulatory Commission) fiscal year 
2018 budget request and it also bears on the fact that we have 
tried now for some 6 years to get past a nuclear waste policy 
act which would enable the money harbored by the Federal 
Government to be spent for proper nuclear development. This may 
well signal where we are today because 10 years ago this 
Subcommittee was preparing for the renaissance of nuclear power 
in the United States. And today, we find ourselves in a very 
different position.
    There are now 19 shut down reactors in the country, with 
six of those in the last 5 years. According to the NEI (Nuclear 
Energy Institute), there are 12 more reactors slated for shut 
down between now and 2024. So, it appears that the industry is 
in serious decline. Last year, Bloomberg reported that more 
than half of U.S. nuclear plants are losing money. The reason 
for this decline are numerous and they're well documented. Low 
natural gas prices are making large investments in nuclear 
uneconomical. Intransigence among the industry of the nuclear 
waste issue, letting it undermine what little political support 
remains locally and nationally. High up-front costs for 
construction of new nuclear plants that put utility balance 
sheets at risk. Increased efficiency and modest economic growth 
have severely dampened demand for large sources of generation. 
Finally, a robust and flexible grid, along with advances in 
storage technology that better integrate renewables and make 
large baseload sources obsolete.
    Some companies remain in denial. Southern Company continues 
to pursue construction of two new reactors in Georgia. They 
made this decision despite more than three billion in cost over 
runs, 5 years of delay and the bankruptcy of their contractor. 
Some are angry about nuclear energy's decline. I'm thinking of 
those communities who have lost the economic benefits of 
operating reactors, but still have to host the spent fuel 
storage. Who can blame them? There are now 80 thousand metric 
tons of spent fuel stored at 77 reactor sites in 33 States with 
the vast majority of this still stored in deep storage pools. 
In California alone, there's over three thousand metric tons or 
over seven thousand, seven thousand, highly radioactive rods 
stored close to the Pacific Ocean with high population centers 
around them.
    Mr. Chairman, you and I have worked for 6 years to move 
this waste away from reactor sites. We have been hamstrung by 
the lack of support from the industry and the politics of Yucca 
Mountain. You have my promise to keep pushing on this issue 
until we find a solution.
    States like New York, Illinois and Connecticut are in the 
bargaining phase. They all passed legislation that compensates 
nuclear plant operators for their zero-carbon emissions 
electricity. These laws have kept nine reactors running, but 
they are being challenged in court and their future is 
uncertain.
    Some companies are suffering from depression. First Energy 
which operates four reactors in Pennsylvania and Ohio declared 
bankruptcy a few weeks ago in part due to the operating costs 
of their nuclear fleet relative to market prices for 
electricity. Similarly, Entergy is seeking to prematurely shut 
down their reactors in Michigan, New York and Massachusetts, 
basically exiting the business in deregulated electricity 
markets.
    This, I believe, currently and accurately states the 
present situation. William Von Hoene, Senior Vice President of 
Exelon, which owns the largest fleet of nuclear reactors in the 
United States, has said this and I quote. ``We're not going to 
build more nuclear plants. Nuclear is the future transition to 
a world which the new plants won't be built because they won't 
be required.'' He further called nuclear a, ``bridge to a 
different of kind of carbon free world.'' I substantially agree 
with this and that's the path I see us pursuing in California 
where San Onofre shut down in 2013 and Diablo Canyon will shut 
down in 2025.
    PG & E says it can make up for the lost power through 
upgrades to the grid, energy efficiency and increased renewable 
generation. Already, California generates enough solar power to 
export some of its electricity to other States. I think this is 
truly the right direction.
    The acceptance phase of this lets us focus on how to 
maintain the safety of the existing fleet through new 
materials, control systems and advanced fuels. We can support 
the existing fleet as a bridge to a cleaner energy and more 
resilient grid without adopting the fantasy that new reactors 
are going to start springing up anytime soon. If there is an 
acceptance phase, it also lets us explore new nuclear 
technologies that potentially address the challenges in the 
existing nuclear fleet with lower up-front costs, less nuclear 
waste and increased accident tolerance.
    Mr. Chairman, I know you support small, modular reactors 
and advanced reactor technologies. I'd like to be in the same 
place, actually, but I need the industry to be much more 
constructive on the issue of waste and more realistic on their 
prospects for the future. The nuclear industry that survives 
may look very different in the decades to come. It may, be 
smaller and more focused on NIST (National Institute of 
Standards and Technology) applications such as cogeneration, a 
process heat for industry and power for remote locations or big 
data centers. But to get here, we have to accept reality and 
ensure a smooth transition. And as we make this transition, it 
is imperative that the NRC maintains its diligent regulation of 
the industry.
    Thank you, Mr. Chairman. I look forward to hearing from our 
witnesses.
    Senator Alexander. Thank you, Senator Feinstein.
    We are joined by the Chairman of the Energy Committee, 
Senator Murkowski, who is welcome to have an opening statement, 
if she would like?
    Senator Murkowski. Mr. Chairman, I don't have an opening 
statement.
    I do have a few quick questions afterwards.
    But I want to comment on what Senator Feinstein has said 
and the effort to focus on the waste aspect of it. Something 
that as the appropriators, the two of you, have helped to 
advance this discussion and myself, Senator Cantwell, as well 
as other Ranking Members on the Energy Committee, know that I 
stand ready and willing to continue this collaborative effort.
    I agree, Senator Feinstein. We have to acknowledge that 
this is yet unfinished.
    I too, want to move towards that next generation of nuclear 
energy capacity. And I'm very excited about some of the 
prospects with small and advanced nuclears and nuclear 
production.
    But I do recognize the concerns that you have raised and 
just express my ongoing willingness to address the issues on 
the back end.
    Senator Feinstein. Thank you very much.
    Senator Murkowski. Thank you.
    Senator Feinstein. It means a great deal, thank you.
    Senator Alexander. Thanks, Senator Murkowski.

                       LETTER FROM SENATOR HELLER

    Senator Heller sent us a letter in opposition to funding 
the Yucca Mountain licensing.
    Without objection, we will include his letter in the 
record.
    [The information follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
  
    
    Senator Alexander. I'll now recognize Chairman Svinicki to 
provide her testimony on behalf of the Nuclear Regulatory 
Commission.
    Chairman Svinicki, welcome.

              SUMMARY STATEMENT OF HON. KRISTINE SVINICKI

    Ms. Svinicki. Thank you very much.
    Good afternoon, Chairman Alexander and Ranking Member 
Feinstein and also, Senator Murkowski.
    My colleagues and I appreciate the opportunity to appear 
before you to discuss the U.S. NRC's fiscal year 2019 budget 
request.
    We have submitted a full testimony on behalf of the 
Commission. I will briefly summarize.
    The funding we are requesting for fiscal year 2019 provides 
the resources necessary to accomplish our mission to license 
and regulate the civilian use of radioactive materials to 
ensure adequate protection of public health and safety and to 
promote the common defense and security.
    The NRC's fiscal year 2019 budget request, including 
resources for the NRC's Office of the Inspector General, is 
$970.7 million.
    The fiscal year 2019 request represents an overall increase 
of $48.7 million, including an increase of 61 full-time 
equivalent employees compared with the fiscal year 2018 enacted 
budget.
    This requested increase in resources is largely 
attributable to proposed activities related to the license 
application for the Yucca Mountain Deep Geologic Repository for 
spent nuclear fuel and other high level radioactive waste.
    Additional funding is also requested for further 
development of the regulatory infrastructure necessary to 
review advanced nuclear reactor technologies and advanced 
accident tolerant fuel types.
    The NRC proposes to recover $815.4 million of the requested 
budget from fees assessed to NRC's licensees. This will result 
in a net appropriation of $155.3 million with $47.7 million to 
be derived from the Nuclear Waste Fund.
    The fiscal 2019 request for our largest single budget line, 
the Nuclear Reactor Safety Program, is $474.8 million 
reflecting an overall funding increase of $25.8 million and a 
decrease of 123 full-time equivalents when compared to the 
fiscal year 2018 annualized CR (Continuing Resolution) budget.
    This budget line includes activities related to the 
licensing of advanced nuclear reactor technologies. We have 
received the first application for certification of a small 
modular reactor from NuScale and the agency is also reviewing 
an early site permit application from the Tennessee Valley 
Authority for two or more, small reactor modules at the Clinch 
River site in Tennessee.
    We anticipate starting additional SMR (small modular 
reactor) pre-application reviews in fiscal year 2019 and 
beginning one or more advanced reactor application reviews in 
the next 2 to 4 years.
    The fiscal 2019 budget request for the agency's Nuclear 
Materials and Waste Safety programs is $183.7 million 
reflecting an increase of $46.8 million, including an increase 
of 82 full-time equivalent employees.
    This increase is due to resources requested for the high-
level waste program, as previously mentioned. Also under this 
budget line is the NRC's review of an application by Holtec to 
construct and operate a consolidated interim storage facility 
for spent fuel from commercial nuclear power reactors which 
would, if approved, be constructed in Lea County, New Mexico.
    In summary, the NRC's budget request reflects our 
continuing efforts to achieve additional efficiencies while 
carrying out our core safety and security mission and also 
preparing for future work.
    On behalf of the Commission, I thank you for your 
consistent support of our very important missions and the 
opportunity to appear before you. Our Commission is pleased to 
answer your questions.
    Thank you again.
    [The statement follows:]
            Prepared Statement of Hon. Kristine L. Svinicki
    Good afternoon Chairman Alexander, Ranking Member Feinstein, and 
distinguished members of the Subcommittee. My colleagues and I 
appreciate the opportunity to appear before you to discuss the U.S 
Nuclear Regulatory Commission's (NRC) fiscal year 2019 budget request.
    The NRC is an independent Federal agency established to regulate 
commercial nuclear power plants; research and test reactors; nuclear 
fuel cycle facilities; and radioactive materials used in medicine, 
academia, and for industrial purposes. The agency also regulates the 
transport, storage, and disposal of radioactive materials and waste and 
the export and import of radioactive materials.
    The agency's statutory mission is to license and regulate the 
civilian use of radioactive materials in the United States, to ensure 
adequate protection of public health and safety, and to promote the 
common defense and security. The fiscal year 2019 budget request 
reflects the agency's continued commitment to improving effectiveness, 
efficiency, and accountability, including increasing the use of risk 
information in regulatory decisionmaking.
    The NRC's fiscal year 2019 budget request, including resources for 
the NRC's Office of Inspector General (OIG), is $970.7 million. The 
fiscal year 2019 request represents an overall increase of $48.7 
million, including an increase of 61 full-time equivalent employees 
(FTE) compared with the fiscal year 2018 enacted budget. This requested 
increase in resources is largely tied to the proposed activities 
related to the license application (construction permit) for the Yucca 
Mountain deep geologic repository for spent nuclear fuel and other 
high-level radioactive waste and for further development of the 
regulatory infrastructure necessary to review advanced nuclear reactor 
technologies.
    In fiscal year 2019, the NRC proposes to recover $815.4 million of 
the requested fiscal year 2019 budget from fees assessed to NRC 
licensees. This will result in a net appropriation of $155.3 million, 
with $47.7 million to be derived from the Nuclear Waste Fund, which is 
an increase of $23.7 million in net appropriations compared with the 
fiscal year 2018 enacted budget. The requested increase is primarily 
the result of activities related to Yucca Mountain licensing, which are 
not fee-billable and must be recovered from the Nuclear Waste Fund, and 
the development of capabilities and tools for the review of advanced 
nuclear reactor technologies. We are still in the process of assessing 
the impacts of the enacted budget on individual program areas, so the 
budget comparisons in the remainder of this testimony will be to the 
fiscal year 2018 annualized continuing resolution.
    Before discussing the specifics of the NRC's fiscal year 2019 
budget request, I'll discuss several key issues being addressed by the 
Commission.
Yucca Mountain
    The NRC continues to provide monthly updates to Congress on its 
activities in response to the decision issued by the U.S. Court of 
Appeals for the District of Columbia Circuit in In re Aiken County, 
focusing on our efforts to spend most effectively the limited remaining 
unobligated carryover funds appropriated from the Nuclear Waste Fund to 
continue with the licensing processes for Yucca Mountain. As part of 
those efforts the agency has completed the remaining four volumes of 
its safety evaluation report and a supplement to the Department of 
Energy's Environmental Impact Statement.
    In February of this year, the Licensing Support Network Advisory 
Review Panel (LSNARP) conducted a public meeting with stakeholders, 
including the State of Nevada, in order to provide information to and 
gather input from advisory panel members and the public regarding a 
suitable replacement or possible reconstitution of the Licensing 
Support Network (LSN). The LSN was originally established by the NRC to 
provide access via the Internet to documents associated with Yucca 
Mountain licensing proceedings and activities. LSNARP members and 
members of the public were provided an opportunity to submit additional 
written comments regarding matters discussed at the meeting by the end 
of March. After all of the comments have been reviewed, the NRC staff 
will provide the Commission options for reconstituting the LSN or 
developing a suitable replacement system for accessing the related 
documents should the Yucca Mountain licensing adjudication resume in 
the future.
Efficiency and Effectiveness
    Several years ago, the NRC initiated a strategic initiative to 
``right size'' the agency and its budget. This work has resulted in 
reductions in the NRC's budget and staff. From 2014 to the proposed 
fiscal year 2019 request, excluding high level waste activities, we 
have reduced our budget by 13 percent from $1.1 billion to $970.7 
million. The number of FTE has been reduced from around 3,800 to about 
3,250. The NRC identified 150 agency-wide activities to discontinue or 
perform with fewer resources. Of these, 149 tasks have been completed 
and the remaining task is on schedule. The agency's current efforts to 
improve efficiency, effectiveness, and accountability go beyond 
previous efforts and the fiscal year 2019 budget reflects additional 
opportunities to transform agency processes and increase the use of 
risk information in regulatory decision-making.
    The NRC's ability to innovate will facilitate our long-term success 
in ensuring the safe and secure use of nuclear materials in the 21st 
century. In January of this year, the agency's Executive Director for 
Operations established an NRC Transformation Team to identify potential 
transformative changes to the NRC's regulatory framework, culture, and 
infrastructure. This team has been engaging a variety of sources both 
internal and external to the NRC, including the nuclear industry, non-
governmental organizations, public organizations, private companies, 
and Federal agencies such as the Department of Transportation and the 
National Aeronautics and Space Administration. Ultimately, the team 
will recommend specific areas for transformative initiatives for 
Commission consideration.
New Small Modular Reactors and Advanced Reactors
    We received the first application for certification of a small 
modular reactor (SMR) from NuScale at the beginning of 2017. The agency 
also is reviewing an early site permit application from the Tennessee 
Valley Authority for two or more SMR modules at the Clinch River site 
in Roane County, Tennessee. We anticipate starting additional SMR pre-
application reviews in fiscal year 2019 and beginning one or more 
advanced reactor application reviews in the next 2 to 4 years.
Congressional Budget Justification Improvements
    Improvements in the fiscal year 2019 Congressional Budget 
Justification include increasing transparency by including a statement 
regarding how the budgeted resources impact fees in each programmatic 
business line. In addition, the NRC's Congressional Budget 
Justification includes the Annual Performance Plan, which provides the 
performance goals as well as performance indicators and criteria 
associated with the goals and objectives established in the agency's 
strategic plan.
Fiscal Year 2019 Budget Request
    I would now like to highlight specific elements of the fiscal year 
2019 budget request.
                         nuclear reactor safety
    The NRC's Nuclear Reactor Safety Program encompasses licensing and 
oversight of civilian nuclear power, research and test reactors, and 
medical isotope production facilities in a manner that adequately 
protects public health and safety. This program also provides 
reasonable assurance of the security of facilities and protection 
against radiological sabotage. This program contributes to the NRC's 
safety and security strategic goals through the activities of the 
Operating Reactors and New Reactors Business Lines that regulate 
existing and new nuclear reactors to ensure their safe and secure 
operation.
    Overall resources requested in the fiscal year 2019 budget for 
Nuclear Reactor Safety are $474.8 million, including 1,925 FTE. This 
represents an overall funding increase of $25.8 million, yet includes a 
decrease of 123 FTE, when compared with the fiscal year 2018 annualized 
continuing resolution (CR). The increase in the Operating Reactors 
Business Line is largely a result of research activities funded with 
authorized prior year unobligated carryover in fiscal year 2017 and 
reflects a change to the fund source. In addition, salaries and 
benefits increased in fiscal year 2018. This budget also includes $10.3 
million for the continued development of a regulatory infrastructure 
for advanced nuclear reactor technologies. The budget request reflects 
ongoing work on the agency plan to merge the Office of Nuclear Reactor 
Regulation and the Office of New Reactors by 2020.
Operating Reactors
    The Operating Reactors Business Line portion of the Nuclear Reactor 
Safety Program encompasses the regulation of 99 operating civilian 
nuclear power reactors and 31 research and test reactors. The NRC is 
requesting $375.6 million for operating reactors, including 1,531 FTE, 
which represents an overall funding increase of $21.8 million from the 
fiscal year 2018 annualized CR. The increase in resources is largely a 
result of research activities funded using authorized prior year 
unobligated carryover in fiscal year 2017. In addition, resources 
increase to support the following activities: (1) potassium iodide 
replenishment for nine States; (2) continued development of accident-
tolerant fuel (ATF) licensing framework; (3) review of one new 
subsequent license renewal (SLR) application (Surry nuclear power plant 
in Surry, Virginia) and the continuing review of two SLR applications 
(Peach Bottom in Delta, PA and Turkey Point in Homestead, FL); (4) 
increased risk-informed licensing activities and license amendment 
requests, work related to the risk-informed steering committee, and 
knowledge management and training to support increasing the staff's 
capabilities to use risk information in decision- making; (5) research 
activities on safety and security of digital systems, materials 
degradation, cable aging, and concrete degradation; (6) increased 
workload to consolidate high-performance computing services and 
migration to the cloud; and (7) increased workload to enhance the 
Replacement Reactor Program System (R-RPS) to support new reactor 
inspection/licensing and regulatory changes and functionality currently 
provided by various new reactor systems.
    These increases are partially offset by decreases resulting from 
(1) a reduction in Fukushima Near-Term Task Force ``Tier 1'' work 
related to the agency's Mitigating Strategies Order, reevaluations of 
flooding and seismic hazards, and the Hardened Vents Order, as well as 
the completion of ``Tier 2'' and ``Tier 3'' work; (2) a reduction in 
license renewal inspections; (3) a reduction in force-on-force 
inspections due to additional plants entering decommissioning; (4) the 
closure of the Fort Calhoun Station near Omaha, NE; (5) the re-
baselining of agency resources; and (6) a reduced workload to implement 
the R-RPS and maintain legacy RPS (to be decommissioned in fiscal year 
2018).
New Reactors
    The New Reactors Business Line portion of the Nuclear Reactor 
Safety Program is responsible for licensing and overseeing the design, 
siting, and construction of new nuclear power reactors, including SMRs 
and advanced reactors. The new reactors activities ensure that new 
civilian nuclear power reactor facilities are developed in a manner 
that protects the health, safety, and security of the public in an 
efficient manner.
    The fiscal year 2019 budget request for new reactors is $99.1 
million, including 394 FTE, a funding increase of $3.9 million, yet 
includes a decrease of 61 FTE, when compared with the fiscal year 2018 
annualized CR.
    The NRC continues to interact with vendors about prospective SMRs 
and advanced reactor applications. Additionally, we will continue to 
refine our regulatory processes as we prepare to review these potential 
applications.
    During fiscal year 2019, we will continue to review reactor design 
certification applications for NuScale (SMR) and U.S. APWR (a large 
light water reactor); conduct licensing reviews for Blue Castle 
Holdings, Inc. and Utah Associated Municipal Power Systems, and conduct 
an early site permit review for the Tennessee Valley Authority's Clinch 
River Nuclear Site. Additional resources will be allocated to support 
the potential application review and construction oversight for two 
reactors at the Bellefonte Nuclear Station near Scottsboro, AL. The NRC 
also will continue conducting inspections at the two reactors under 
construction at Vogtle Electric Generating Plant in Waynesboro, GA.
                   nuclear materials and waste safety
    The Nuclear Materials and Waste Safety Program is responsible for 
licensing, regulating, and overseeing nuclear materials in a manner 
that adequately protects the public health and safety. Through this 
program, the NRC regulates uranium processing and fuel facilities, 
research and pilot facilities, and other nuclear materials licensees 
such as medical, industrial, research, and academic uses. Additionally, 
through this program, the NRC regulates spent fuel storage, spent fuel 
and material transportation and packaging, decontamination and 
decommissioning of facilities, and low-level and high-level radioactive 
waste activities. The fiscal year 2019 budget request for this program 
is $183.7 million, including 650 FTE. This funding level represents an 
overall funding increase of $46.8 million, including an increase of 82 
FTE, when compared with the fiscal year 2018 annualized CR budget. This 
increase is due to $47.7 million, including 124 FTE, for work on the 
license application (construction permit) for the proposed Yucca 
Mountain deep geologic repository for spent nuclear fuel and other 
high-level radioactive waste that was not included in the fiscal year 
2018 annualized CR.
Fuel Facilities
    The Fuel Facilities Business Line portion of the Nuclear Materials 
and Waste Safety Program is responsible for ensuring that fuel cycle 
facilities are licensed and operated in a manner that adequately 
protects public health and safety and promotes the common defense and 
security. The fiscal year 2019 budget request for fuel facilities is 
$25.2 million, including 107 FTE, which represents a funding increase 
of $0.5 million, and a decrease of 6 FTE, when compared with the fiscal 
year 2018 annualized CR.
Nuclear Materials Users
    The Nuclear Materials Users Business Line portion of the Nuclear 
Materials and Waste Safety Program supports the licensing and oversight 
necessary to ensure the safe and secure processing and handling of 
nuclear materials. The fiscal year 2019 budget request for nuclear 
materials activities is $60.6 million, including 215 FTE, a funding 
decrease of $2.9 million and a decrease of 23 FTE compared with the 
fiscal year 2018 annualized CR.
Spent Fuel Storage and Transportation
    The Spent Fuel Storage and Transportation Business Line portion of 
the Nuclear Materials and Waste Safety Program supports the safe and 
secure storage of spent fuel and the safe and secure transport of 
radioactive materials. These activities include licensing, oversight, 
rulemaking, international activities, research, and generic homeland 
security.
    The fiscal year 2019 budget request for spent fuel and 
transportation is $24.8 million, including 100 FTE, a funding increase 
of $2.5 million and a decrease of 2 FTE when compared with the fiscal 
year 2018 annualized CR. Resources increase primarily under the 
Licensing Product Line to support safety, security, emergency 
preparedness, and environmental reviews for two concurrent applications 
for a consolidated interim storage facility; the effort to update/
consolidate the standard review plan; anticipated legal activities; and 
to support Independent Spent Fuel Storage Installation license 
renewals.
    In February, the NRC formally docketed an application by Holtec, 
Inc. to construct and operate a consolidated interim storage facility 
for spent fuel from commercial nuclear power reactors in Lea County, 
New Mexico. Holtec seeks to store up to 8,680 metric tons of uranium in 
commercial spent fuel at the site in underground storage systems for a 
40-year license term.
    The other application for a consolidated interim storage facility 
was submitted by Waste Control Specialists (WSC) to build and operate a 
facility near Andrews, Texas. That application was docketed for review 
in January 2017, but the review was suspended in April 2017 at the 
applicant's request. Recently, WCS announced its intent to request that 
the NRC staff resume its review.
Decommissioning and Low-Level Waste
    The Decommissioning and Low-Level Waste (LLW) Business Line portion 
of the Nuclear Materials and Waste Safety Program supports licensing 
and oversight associated with the safe and secure operation of uranium 
recovery facilities, decommissioning of nuclear facilities, and 
disposition of low-level radioactive waste from all civilian sources. 
The fiscal year 2019 budget request for decommissioning and LLW is 
$25.4 million, including 104 FTE, an overall funding decrease of $1.0 
million and a decrease of 11.0 FTE when compared with the fiscal year 
2018 annualized CR.
    The fiscal year 2019 budget request provides funding for a number 
of major activities to include oversight of the national LLW management 
program and monitoring of the Department of Energy's waste-incidental-
to-reprocessing determinations and related disposal actions at the 
Savannah River Site and the Idaho National Laboratory. Other noteworthy 
LLW activities include decommissioning activities for two research 
reactors and 20 power reactors.
    Under the Licensing Product Line, fewer resources are needed 
because of the expected decline in workload resulting from Wyoming's 
anticipated transition to Agreement State status in late calendar year 
2018. When this agreement is approved and implemented, the NRC will 
discontinue its regulatory authority over certain uranium and thorium 
milling activities and transfer regulatory authority and related 
licenses to the State of Wyoming. Currently, approximately 70 percent 
of NRC-licensed uranium recovery facilities are located in the State of 
Wyoming. Additionally, resources decrease to reflect the expected 
workload decline with the non-military radium program. These decreases 
are partially offset by increases to support various rulemaking 
activities, including the Greater-Than-Class-C and Transuranic Waste 
rulemakings.
High-Level Waste
    The High-Level Waste Business Line portion of the Nuclear Materials 
and Waste Safety Program supports the NRC's activities for the proposed 
Yucca Mountain deep geologic repository for the disposal of spent 
nuclear fuel and other high-level radioactive waste using 
appropriations from the Nuclear Waste Fund. The fiscal year 2019 budget 
request for high-level waste is $47.7 million, including 124 FTE. 
fiscal year 2019 resources would include support to the adjudicatory 
proceeding; infrastructure activities for information technology 
capabilities; rulemakings associated with the geologic repository 
operations area; and related support activities such as acquisitions, 
recruitment, and staffing.
Corporate Support
    The NRC's corporate support involves centrally managed activities 
that include acquisitions, administrative services, financial 
management, human resource management, information technology and 
information management, training, outreach, and policy support. The 
fiscal year 2019 resources requested for corporate support constitute 
31 percent of the agency's total budget and reflect an overall increase 
of $1.5 million, yet include a decrease of 108 FTE, when compared with 
the fiscal year 2018 annualized CR. The fiscal year 2019 budget request 
supports the NRC's continued efforts to modernize IT to increase 
productivity and security, improve the efficiency and effectiveness of 
administrative services, develop a workforce for the 21st century, 
focus on the highest-value work, and improve customer service. 
Resources increase in fiscal year 2019 primarily as a result of 
investments in IT and an increase in salaries and benefits in fiscal 
year 2018.
Office of Inspector General
    The NRC's OIG is a statutory entity whose mission is to 
independently and objectively audit and investigate programs and 
operations to promote effectiveness and efficiency, and to prevent and 
detect fraud, waste, and abuse. The fiscal year 2019 budget request for 
the NRC OIG is $12.6 million, which includes approximately $11 million 
in salaries and benefits to support 63 FTE, and $1.6 million in program 
support. These resources will support Inspector General auditing and 
investigation functions for both the NRC ($11.5 million) and the 
Defense Nuclear Facilities Safety Board ($1.1 million).
Fiscal year 2018 Proposed Fee Rule
    I would like to turn to some key elements of the fees for fiscal 
year 2018. The NRC adjusts its licensing, inspection, special project, 
and annual fees charged to its applicants and licensees each year. 
These adjustments are necessary to implement the requirements of the 
Omnibus Budget Reconciliation Act of 1990. The Act requires the NRC to 
recover approximately 90 percent of its annual budget through fees. 
Certain items like the Nuclear Waste Fund, generic homeland security 
activities, waste incidental to reprocessing, advanced reactor 
regulatory infrastructure development, international activities, and 
Inspector General services to the Defense Nuclear Facilities Safety 
Board are excluded from the fee-recoverable portion of the budget.
    The NRC proposed to collect $826.7 million in fees in the proposed 
fiscal year 2018 Fee Rule. However, based on the recently enacted 
appropriations bills, the NRC now anticipates needing to collect 
approximately $790.3 million in fees for fiscal year 2018.
    The fees are collected by two primary methods. Licensees are 
charged an annual fee or directly billed for services including license 
amendments, license renewals, and inspections. In setting the fees each 
year, the NRC uses the most recent four quarters of licensee activity 
and additional information from licensees regarding plans to conduct 
significant work to project the expected amount of work that will be 
directly billed during the fiscal year. The remaining portion of the 
fee-recoverable budget is collected through annual fees assessed to 
each licensee.
    The public comment period for the proposed fiscal year 2018 Fee 
Rule ended on February 26, 2018. The agency has received input from a 
number of industry stakeholders expressing concerns with increasing 
fees, particularly in areas where the number of licensees are declining 
(e.g., uranium recovery, fuel facilities, and operating reactors). We 
are mindful of the impact on fees, particularly as the number of 
licensees declines within a fee category. Our goal is to ensure that 
our fees are equitable, fair, and transparent. We monitor such declines 
and seek to mitigate the impact on the remaining facilities, where 
possible. We are also committed to continuing to examine and adapt our 
fee structure within the bounds of our authority to do so in response 
to a changing industry.
                                closing
    In closing, safety and security have always been the main focus of 
the NRC. This budget request reflects our continuing efforts to achieve 
additional efficiencies while maintaining reasonable assurance of 
adequate protection of public health and safety and the security of our 
Nation.
    Chairman Alexander, Ranking Member Feinstein, and distinguished 
Members of the Subcommittee, this concludes my written testimony. On 
behalf of the Commission, I thank you for the opportunity to appear 
before you. Thank you also for your support of the vital mission of the 
NRC. We would be pleased to respond to your questions.

    Senator Alexander. Thank you, Chairman Svinicki. Without 
objection, we'll include your full written statement as part of 
the record as well as the written statements of Commissioner 
Burns and Commission Baran.
    [The statements follow:]
             Prepared Statement of Commissioner Jeff Baran
    Chairman Alexander and Ranking Member Feinstein, thank you for the 
opportunity to testify today. It's great to be here with my colleagues 
to discuss NRC's fiscal year 2019 budget request and the work of the 
Commission.
    Chairman Svinicki provided an overview of NRC's budget request. I 
want to briefly highlight a few related efforts underway at NRC.
    I'll start with Project Aim, our multi-year effort to take a hard 
look at what work the agency is doing and how we're doing that work. 
The goals have been to become more efficient and agile and to prepare 
for the future. The results of Project Aim and our very limited 
external hiring have been dramatic. In just 2 years, NRC's workforce 
has declined by more than 12 percent. The agency started the current 
fiscal year with around 3,200 employees. That's about the same staffing 
level as in 2006, before NRC started to ramp up for the anticipated 
wave of new reactor applications. When Project Aim got underway in 
2015, the NRC staff envisioned that it would take until 2020 to match 
the agency's resources to its workload. But NRC was able to make 
progress much more quickly on getting to the right staffing level for 
our current and expected workload.
    Going forward, we need to internalize an enduring focus on 
efficiency. For the agency's long-term health, we also need a stable 
pipeline of new talent through external hiring and an emphasis on 
maintaining the NRC staff's core technical capabilities and safety 
inspection activities.
    In addition, the NRC staff has launched a transformation initiative 
to identify any steps the agency should take to improve its approach to 
reviewing new technologies, such as advanced reactors, accident 
tolerant fuel, and digital instrumentation and controls. I think that's 
a good focus for the transformation team and appreciate that the team 
is doing a lot of outreach to stakeholders. I look forward to hearing 
their thoughts and recommendations.
    There are many other important efforts underway at NRC, including 
the implementation of post-Fukushima safety enhancements, the power 
reactor decommissioning rulemaking, the review of the first small 
modular reactor design application, and oversight of construction at 
the Vogtle site.
    We're happy to discuss these and any other issues of interest. 
Thank you, and I look forward to your questions.

    Senator Alexander. We'll now begin the round of questions. 
And I'm going to defer to Senator Murkowski for the first 
questions.
    Senator Murkowski. Thank you, Mr. Chairman.
    Chairman Svinicki, thank you for your leadership on the 
Committee. Commissioners, thank you for being here.

             LICENSING SMALL MODULAR AND ADVANCED REACTORS

    You mention the NuScale application with SMRs. As I 
mentioned, we look to these new developments as real 
opportunities.
    I'm also very excited by the prospect of micro reactors 
that could provide low-cost electricity to some of our very 
rural, remote villages, also some of our resource projects that 
are not connected to anything that are lacking access to energy 
generation, but also military installations, again, in remote 
areas in Alaska.
    There is, at least one developer that I know of, Oklo, 
who's been working with the NRC already.
    As you are anticipating eventually receiving license 
applications from advanced micro reactor companies, how is the 
Regulatory Commission working to prepare for new advanced 
reactor licensing, that whole process moving forward, and do 
you anticipate the license requirements different for these 
advanced reactors that are just different in terms of their 
safety?
    How will you handle these new entrants to this application 
process?
    Ms. Svinicki. Well, thank you for the question.
    Just yesterday, our Commission had a public session where 
we met with representatives of a number of advanced reactor 
technology companies. And something that I was struck by is it 
is a tremendous diversity of technologies, of fuel types and as 
a regulator that's been regulating power reactors that, in 
general, are fairly similar to each other, getting in place our 
regulatory preparedness is something that we have to go about 
with a lot of care and discipline.
    One of the ways that we do that is to stay engaged in deep 
communications with the technology development community, also 
with our colleagues in the U.S. Department of Energy and the 
national laboratories and other research institutions like EPRI 
(Electric Power Research Institute), that are participating in 
creating the fundamental knowledge base that will move forward, 
not only the development of the reactor designs themselves, but 
the kind of foundational knowledge base that we will need, as 
the safety regulator, to reach the kind of independent, safety 
conclusions that we have to reach.
    Senator Murkowski. So you also need to focus on your own 
workforce there at the Commission to ensure that you're going 
to be in a position to regulate, but recognizing that there is 
a, there's a variety here that you're looking at and it is not 
just, I don't want to call them cookie cutter, but a more 
routine application process from what you have historically 
seen before the Commission.
    Ms. Svinicki. And what that represents, Senator, is such a 
diversity of materials, of again, we just need to understand a 
lot of the physical properties, the way these materials will be 
utilized, the temperature and pressure conditions to which 
these materials will be subject.
    So, again, I think that engaging with a broader scientific 
community. For example, Oak Ridge recently provided a training 
session to U.S. NRC experts and it was across a whole diversity 
of scientific expertise. We allowed a fairly broad group of NRC 
staff to sign up, including attorneys and others. You know, 
there'll be legal policy issues that will be posed by some of 
these new reactor types.
    So, that was helpful.
    We picked molten salt reactor technologies and I'm sure 
that was disappointing to advanced reactor developers who don't 
have molten salt reactors.
    But it's hard for us until someone really emerges from the 
pack. You mentioned Oklo. They've been out to see us a lot and 
I think that they are moving far along in their pre-application 
engagement with the regulator.
    But someone else could emerge from the pack and then be the 
first to submit a design for review.
    So, we're trying to stay very agile about it and just 
again, be showing up and communicating with developers and 
getting a good sense of their plans.
    Senator Murkowski. Let me ask you about this process to 
commercialization.
    I've been concerned about the loss of global leadership in 
the nuclear space and I know the world still considers the NRC 
to be the gold standard for nuclear regulation and I think, 
rightfully so.
    But I'm in the camp that says, it's important to be 
accelerating our efforts, leveraging the Federal Government's 
R&D programs, the partnerships that we have with industry, to 
really move forward with these advanced reactors, getting them 
to market.
    Now, I'm afraid that if we don't step it up, if we don't 
hustle, we could miss the massive global export market and I 
think, vacate the seat that we have currently for regulatory 
and non-proliferation conversations.
    So, you mentioned or I mentioned that the commercialization 
process, the fact that we've got some bottlenecks there. Do you 
have concerns about that specifically, the lack of proper 
advanced reactor fuel supplies and a lack of fast neutron 
research capabilities? Do you look at this as being a 
bottleneck to commercialization that concerns you?
    Ms. Svinicki. Those specific issues did arise in the public 
meeting of our Commission yesterday, the high assay, low 
enriched uranium fuel where we had DOE (Department of Energy) 
representatives at our meeting. Candidly, I think that they are 
in the position for the U.S. Government to bring forward 
solutions to make those materials available to the technology 
development community.
    And then the testing facilities, we've heard, even with 
accident tolerant fuels that in some cases if a certain reactor 
in Norway is not available, Russia would be the only remaining 
facility that could provide the irradiation services to the 
technology community.
    So, I think that there are clearly government wide policy 
issues and bottlenecks to address there.
    Senator Murkowski. Look forward to working with you on some 
of these.
    Thank you, Mr. Chairman. I appreciate the opportunity to 
ask the questions.
    Senator Alexander. Thank you, Senator Murkowski.
    Senator Feinstein.

         DECOMMISSIONING SAN ONOFRE NUCLEAR GENERATING STATION

    Senator Feinstein. Thanks very much, Mr. Chairman.
    I would just like formally to thank the Chair of the Energy 
Committee for her cooperation and I really hope we can get 
something passed to get all of these nuclear waste sites put 
into some permanent facilities.
    I'm watching the decommissioning process at San Onofre 
closely and I understand they're moving ahead with expanding 
their dry spent fuel storage area and their plans include 
demolishing the reactor buildings on an expedited timeframe, 
concluding work in 2027.
    I also understand that the NRC has issued all necessary 
approvals and the utilities have selected contractors so 
physical dismantlement could begin soon.
    Can you confirm that the NRC will continue to inspect the 
site and oversee the decommissioning program to ensure safety?
    Ms. Svinicki. Yes, Senator.
    Senator Feinstein. Thank you.
    What are the biggest risks, in your view, to completing the 
decommissioning process in a safe and timely manner?
    Ms. Svinicki. I'm not aware of any specific concerns at San 
Onofre, but in general the complexities of this type of 
decommissioning work are that it can sometimes be a fairly 
small footprint for the facility and you're trying to have some 
buildings come down, you may have workers doing work in a 
contiguous area.
    And so, I do think there are a number of occupational 
safety issues that you have to be very, very disciplined about 
and then that can also mean there is potential for radiological 
exposures to workers. Again, often those are managed within 
occupational limits, but you have to take great care about such 
matters.

                       DIABLO CANYON POWER PLANT

    Senator Feinstein. Let me turn, if I may, to Diablo Canyon.
    As part of its response to Fukushima, it's my understanding 
the NRC asked all nuclear plants for information regarding 
seismic and flooding hazards. This analysis is particularly 
important here because the plant sits on the California coast 
within a mile of a fault line in the ocean and PG & E submitted 
data in 2016.
    What's the status of that risk analysis for the plant and 
what makes the NRC confident that there are no safety concerns 
in the interim?
    Ms. Svinicki. Thank you, Senator.
    Yes, all plants were required to do a reanalysis of their 
seismic hazard. And as you've indicated, Diablo submitted that 
analysis in 2016.
    For plants that were subject to the probability of larger 
seismic events such as Diablo Canyon, there is additional work 
that they have to do if they, again, have a probability of 
having a larger seismic event. They have to do a more in-depth 
analysis.
    But we did conduct a review of their preliminary analysis 
and I believe that they are on track to submit their deeper 
hazard analysis for seismic matters, I think, mid this year.
    I can provide that for the record, if I'm not remembering 
the right date.
    But for the interim period, based on the preliminary 
analysis, we did an assessment that assured us that should they 
encounter a large seismic event, the safety systems would 
perform as intended, given the nature of the seismic event they 
could have.
    Senator Feinstein. Thank you very much.
    And if you'd make those records part of our record, I'd 
appreciate it very much.
    [The information follows:]

    Pacific Gas & Electric Company (PG&E) submitted its Seismic Hazard 
and Screening Report (SHSR) for Diablo Canyon Nuclear Power Plant, 
Units 1 and 2 (DCPP) in 2015. The NRC staff issued its assessment of 
the SHSR in 2016 that confirmed that DCPP screened-in for a seismic 
probabilistic risk assessment (SPRA), which will include a high- 
frequency confirmation, and a spent fuel pool (SFP) evaluation. In its 
SHSR, PG&E demonstrated seismic margins supportive of continued plant 
operation at DCPP while these additional evaluations were conducted.
    PG&E submitted the SFP evaluation for DCPP in December 2017. The 
submittal evaluation demonstrates that the SFP has significant 
structural margin when compared to the reevaluated seismic hazard. The 
NRC staff is currently performing its technical review of this 
evaluation and plans to issue an assessment by July 2018.
    PG&E submitted the SPRA results report for DCPP on April 24, 2018. 
The NRC staff has begun its review of the report and is expected to 
complete it in the beginning of 2019.
    The NRC remains confident that U.S. nuclear plants, including DCPP, 
are safe in spite of the increase in seismic hazard at some sites. This 
is based largely on the large seismic safety margins that exist for 
U.S. nuclear plants, along with interim actions and additional 
engineering analyses that were completed for sites where the 
reevaluated hazard exceeds the facility's design basis.
    The NRC staff considered several factors during the interim 
evaluation of continued safe operation at DCPP while the longer term 
analyses were being performed. These factors included an analysis of 
the seismic margin at DCPP, the plant's enhanced ability to mitigate 
the effects of external hazards by complying with post-Fukushima NRC 
orders, and the low likelihood of the occurrence of a seismic event of 
the magnitude of the reevaluated seismic hazard. The NRC's letter to 
DCPP, dated October 23, 2017, provides additional details regarding 
these factors for continued safe operation.
    PG&E submitted the SPRA results report for DCPP on April 24, 2018. 
This report is publicly available in the NRC's Agencywide Documents 
Access and Management System (ADAMS) at Accession No. ML18120A201: 
Seismic Probabilistic Risk Assessment for the Diablo Canyon Power 
Plant, Units 1 & 2--Response to NRC Request for Information Pursuant to 
10 CFR 50.54(f) Regarding Recommendation 2.1: Seismic of the Near-Term 
Task Force Review of Insights from the Fukushima Dai-Ichi Accident. The 
NRC staff has begun its review of the report and is expected to 
complete it in the beginning of 2019.

                CONTINUED STORAGE OF SPENT NUCLEAR FUEL

    Senator Feinstein. In August of 2014, the NRC issued a rule 
on the environmental effects of continued spent fuel storage at 
nuclear plants.
    You found that spent fuel could be safely stored 
indefinitely at reactor sites.
    Essentially, it seems that the NRC is saying that a 
permanent repository or efforts to construct are not necessary.
    So, here's the question.
    How can the NRC be confident about the safety of waste, hot 
waste, stored a hundred or a thousand years from now at 77 
reactor sites across 33 States?
    Ms. Svinicki. Thank you for the opportunity to clarify that 
point.
    As you indicate, the Commission was concerned that it would 
create a view that we were concluding that permanent disposal 
was not necessary or even that consolidated storage was not 
desirable.
    We took some pains in our statement of considerations in 
the Federal register to clarify that that was not the case. We 
were not concluding that there was any policy that made it 
desirable to leave fuel at sites, but of course, it's a very 
voluminous document and not everyone reads the policy 
disclaimers that we put in there.
    So, I appreciate the opportunity to clarify that we did not 
intend to indicate that. It was more a statement that our 
authorities are such that if extraordinary measures were 
necessary, including repackaging fuel or revisiting it every, 
you know, on a decadal basis and having to come back and 
repackage it, we would have the authority to do that.
    But it's nothing to do with that as a preferable policy.
    Senator Feinstein. Okay, thank you. My time is up.
    Thank you, Mr. Chairman.
    Senator Alexander. Thank you, Senator Feinstein.

           CONSOLIDATED INTERIM STORAGE OF SPENT NUCLEAR FUEL

    Ms. Svinicki, want to talk about the two applications from 
private companies, continuing Senator Feinstein's interest and 
mine in the nuclear waste stalemate.
    The applications from West Texas--so you have applications 
from West Texas and New Mexico, is that right?
    Ms. Svinicki. Yes, we do.
    Senator Alexander. I understand that these can be licensed 
under the Commission's existing regulations. Is that right?
    Ms. Svinicki. Yes, they've been submitted under, what we 
call, 10 Code of Federal Regulations, part 72. It's an existing 
part of our regulations.
    Senator Alexander. And last year you told this Committee 
the review process could take up to 3 years. Does that still 
seem accurate?
    Ms. Svinicki. Yes, that is still an estimate. However, that 
would not include if there is a hearing requested and parties 
achieve standing and challenge portions of the application. In 
order to conduct that licensing board adjudicatory proceeding, 
there could be some time that would fall outside of a 3-year 
window depending on the complexity of the challenges mounted 
legally to the application.
    Senator Alexander. When does the 3-year period start? Has 
it already started with those two applications?
    Ms. Svinicki. It has started for Holtec. For the project in 
Texas, what we call WCS, the applicant requested that we 
suspend our activities related to that application.
    So, that does pend before us, but it hangs in a state of 
suspension.
    The Holtec review is active and the 3 years begins upon the 
docketing of the application which has occurred for Holtec.
    Senator Alexander. Was that suspension due to a 
reorganization of ownership?
    Ms. Svinicki. It was, yes.
    And I will say that there's been or is ongoing an 
acquisition of that company and the new owner has communicated 
in the trade press and I believe to us, informally, that they 
will be requesting restart of the review of the Texas project.
    However, we've not received any indication from them that 
they--they've indicated that they will be requesting restart, 
but they have not yet requested it.
    Senator Alexander. But you don't have a formal request?
    Ms. Svinicki. We do not.
    Senator Alexander. What will the cost of those application 
reviews be, those two reviews?
    Ms. Svinicki. Our costs and billing costs, I'm not certain.
    I know that we had provided estimates to the applicants, 
but I have forgotten what they are. If I could provide that 
figure for the record.
    [The information follows:]

    As indicated in its acceptance letters to both Waste Control 
Specialists and Holtec regarding review of their Consolidated Interim 
Storage Facility (CISF) license applications, the NRC estimates 
(assuming a high quality CISF application) that the associated safety, 
security, and environmental reviews could be completed in approximately 
3 years at an estimated cost of $7.5 million in review fees, including 
contractor costs, for each application.

    Senator Alexander. Well, you could, I guess what I'm more 
interested in is does the Commission believe it has sufficient 
resources to review the applications and has enough funding 
been requested in this year's budget request for the reviews?
    Ms. Svinicki. Yes, we have funding under the enacted levels 
that the Congress provided for the current fiscal year for two. 
So, I think we were providing a budget wedge for the 
presumption of the second project.
    And in fiscal year 2019, we are requesting the funding for 
two, the review of two projects.
    Senator Alexander. Do you believe that it would be possible 
to place used nuclear fuel in a private consolidated storage 
site more quickly than in Yucca Mountain?
    Ms. Svinicki. Just reflecting on the timeframes again, if 
it took approximately 3 years from the docketing versus the 
completion of the Yucca Mountain licensing proceeding and then 
making some estimate for the time to construct a consolidated 
interim storage facility, I do have to acknowledge that it 
would either be very close or the consolidated interim storage 
facility is likely to come, I think, under those scenarios 
would be likely to be available sooner.
    Senator Alexander. Now after you complete the, if you were 
to complete the review and approve the private proposal, the 
next step would be construction. Is that right?
    Ms. Svinicki. Yes.
    Senator Alexander. And construction might take how long? Is 
there a rough guess about that?
    Ms. Svinicki. Well, if I were to consider it analogous to 
the types of cask storage that exist at reactor sites that is 
not a protracted construction.
    There is a very, very substantial concrete pad. It's not 
just like a superficial pad. It is an engineered pad.
    But there's a lot of industry experience with constructing 
those pads and then the storage technology, of course, is in 
use all across the country right now.
    Senator Alexander. So, is that a matter of many years or a 
few years or 1 year?
    Ms. Svinicki. I don't know that my estimate is terribly 
sophisticated, but I don't think it would have to be years 
because again, the facility, in theory, if approved, could 
begin to receive. They can pour the engineered pad in sections.
    So, you could even have a phased beginning of operations. 
They wouldn't need to have the totality of it built in order to 
begin to receive spent fuel.
    Senator Alexander. What does the facility look like? Is it 
above ground? Is it underground?
    Ms. Svinicki. I am not certain of the dry storage 
technology referenced in the two applications.
    But of course, there are the two varieties. For example, at 
San Onofre it is a dry storage technology that has some part of 
it subsurface to protect it against external events or 
terrorist attack, things like that.
    And then there is dry storage technology that the entirety 
of the cask sits above the ground surface.
    Senator Alexander. So, it could be either.
    Ms. Svinicki. Could be either.
    Senator Alexander. Yes, but it's a permanent dry storage of 
casks that are on concrete pads either above or below the 
ground. Is that basically it?
    Ms. Svinicki. Yes, yes, so again, by that description. It's 
obvious----
    Senator Alexander. That's not such a com----
    Ms. Svinicki. That doesn't need to take years and years to 
do that, no.
    Senator Alexander. Yes. Okay.
    Senator Feinstein, do you have other questions?
    Senator Feinstein. Just one addition.
    So, all this is above ground on a concrete pad and how long 
is that supposed to last?
    Ms. Svinicki. Well, we license it in increments of 40 
years.
    So, the license issued is for both construction and 
operation of the facility. It's a one-step license and it's 
licensed in increments of 40-year duration. It gets rereviewed.
    Senator Feinstein. I must have misunderstood you because I 
can't believe this is taking a dry cask, putting it on a cement 
block and maybe building the cement up around it somewhat and 
that's it.
    Is that right?
    Ms. Svinicki. That's the fundamental technology of dry 
storage.
    Senator Feinstein. And that's forever?
    Ms. Svinicki. Well, it would be licensed. The license 
duration is 40 years.
    Mr. Baran. Right, it's not forever. That is temporary 
storage, not permanent disposal.
    Senator Feinstein. For how, you know----
    Senator Alexander. These are interim storage sites.
    Senator Feinstein. Yes, for how long? Interim?
    I mean, that's a nice word to use unless it has a meaning, 
it's meaningless.
    Mr. Baran. As the Chairman mentioned, there would be, the 
applicant would be seeking the license for a certain period of 
time. It would be very similar to the onsite dry cask storage 
that exists right now around the country at the reactors.
    Senator Feinstein. Yes.
    Mr. Baran. If you looked at it, it would be a much larger 
version of that.
    Senator Feinstein. But it was which I think there is reason 
to question too.
    I mean, we're going to just fill up everything with storage 
facilities above ground?
    I mean, this is where the whole issue becomes very 
problematic and particularly we've got two big reactors, two 
1100 megawatt reactors, closing down.
    No, I guess we have four.
    And you know, that's a lot of waste. The last time I looked 
there were 3,300 rods in pools at one facility.
    So, I am really worried. And I think we have grown up 
without really worrying very much about the risks, but I worry 
about it greatly.
    But thank you very much, I appreciate that. I appreciate 
what you do and I know it's probably, at times, unrewarding, 
but thank you anyway.
    Senator Alexander. Thank you, Senator Feinstein.
    The idea would be that it would be temporary at these 
private facilities and they'd be moved out of California, 
Senator Feinstein. So, there's that advantage, until the 
permanent repository is set.

            SAFELY EXTENDING LICENSES FOR EXISTING REACTORS

    I have one other question moving to extending the licenses 
of operating reactors at a time when there's a great deal of 
interest.
    The French President, the President of the French Republic 
was here today and spoke about climate change.
    The largest source of carbon-free electricity in the United 
States is nuclear power, not just the largest, but 60 percent 
of it all.
    Senator Whitehouse, who is perhaps as ardent an advocate 
for dealing with climate change as any Senator, has joined me 
in statements that say it makes no sense if you care about 
climate change to close nuclear plants that are producing 
carbon-free electricity.
    So, one way to continue the source of carbon-free 
electricity in a reliable way, of course, is extending the 
licenses of operating reactors where that can be done safely.
    And you've received an application from the Turkey Point 
Nuclear Plant in Florida which would be, as I understand it, 
the first application to go from 60 to 80 years. Is that right?
    Ms. Svinicki. That's correct and that's for two units, 
Turkey Point Three and Four.
    Senator Alexander. And each of those are 1100 megawatts, 
something like that or about that size?
    Ms. Svinicki. Yes, they're large, light water reactors, 
yes.
    Senator Alexander. How long would you expect the review of 
the Turkey Point application to take?
    Ms. Svinicki. Just this week we completed our review of the 
completeness of the application and we indicated to the 
applicant that we are docketing and accepting that application 
for review.
    We will be providing a written estimate of the schedule to 
the applicant, I believe, next week, but I understand it to be 
an 18-month milestone schedule that we've set.
    Senator Alexander. Do you have sufficient funds in your end 
in the budget request to review the applications?
    Ms. Svinicki. We do have current year funds and we do 
anticipate receipt of additional applications in fiscal year 
2019 and we have requested funding to support those reviews as 
well.
    Senator Alexander. Chairman Svinicki, that's all the 
questions I have.
    I wonder if you or the other Commissioners have any other 
comment you'd like to make before I conclude the hearing?

                  ADVANCED REACTOR REGULATION FUNDING

    Ms. Svinicki. Well, I'm tempted to grab the opportunity to 
just have, be excused from the hearing, but I would note that 
our Commission is grateful for the funding that Congress has 
provided in the advanced reactor area off of the fee base 
because it's our observation that it is causing the advanced 
reactor community to engage more fully with the NRC because 
they do not have to be charged under the fee recovery for those 
activities.
    I think that early regulatory engagement between the NRC 
and developers can help build a good common understand of the 
technology development that they're undertaking.
    And so, I appreciate that the Congress has provided that 
off fee base funding. That makes a big difference versus 
getting it in our fee base.
    Senator Alexander. Either of the other Commissioners?
    Mr. Burns. I would agree with what the Chairman said on 
that and one of the things that we've spoken in response to, I 
think your earlier question or perhaps Senator Murkowski's 
earlier questions.
    This has also allowed us to focus on infrastructure type 
improvements and enhancements that our staff is working on and 
engaged with the various stakeholders, you know, potential 
vendors, designers in the industry.
    And in terms of developing what needs to be changed in 
terms of licensing framework, et cetera and that helps us move 
that along.
    And as the Chairman said, without over concern in terms of 
the fee base and doing that kind of work.
    Mr. Baran. Mr. Chair.
    Senator Alexander. Mr. Baran.
    Mr. Baran. And I would just add, as we get to a point, if 
it looks like we're actually going to receive an advanced 
reactor application in 2019 or 2020 and the budget request does 
include funds to begin a review in fiscal year 2019, if one 
comes in, we're going to need to strike a balance between 
continuing that work on the overall technology neutral 
framework for advanced reactors and getting prepared for that 
specific technology that's actually coming through the door so 
that we can do an efficient and effective review of that 
particular application.
    Senator Alexander. Well, my own view is I'm concerned for 
our country about the closing of so many reactors for a variety 
of reasons. It seems counterintuitive at a time when we need 
reliable electricity that's carbon free that the largest source 
of it would be diminishing for whatever reason.
    One way to deal with that is to put a special emphasis on 
small reactors and advanced reactors. And as you use the word 
agile, I applaud that, as you poke around in your discussions 
with the various people developing technologies, you may be 
surprised by something. Something may turn up that you don't 
expect and lead you toward a different conclusion.
    And I think it's in our national interest for you to be 
agile in this pioneering stage of advanced reactors and modular 
reactors.
    And I would like to do whatever we can here in the Congress 
to create an environment where those can succeed.
    I know that in the small reactors you have a willingness 
both in Idaho and with TVA (Tennessee Valley Authority), Oak 
Ridge, to move ahead and it's important to have players who are 
willing to move ahead, willing to spend the money, willing to 
invest the time and the effort and take the risk.
    And then with advanced reactors, there's just a lot of 
experimenting going on right now. People are coming up with new 
ideas and they see the value of nuclear energy. And I think 
we'd be wise as a county to do that.
    So, I hope that you will, I know safety is always paramount 
and will continue to be, but I think an agility is not always a 
characteristic of a government agency. But I think agility is a 
really good characteristic of the Nuclear Regulatory Commission 
right now as it looks at small reactors and especially advanced 
reactors. And we'll continue to be interested in that.

                        NUCLEAR WASTE STALEMATE

    And also, we have to break this nuclear waste stalemate at 
some point. And it's not your fault we have it. It's Congress' 
fault for being stuck on the fight between Yucca Mountain and 
the temporary storage sites, but if Congress should resolve 
that, we'd like to be in a position to move ahead as rapidly as 
we can.
    And I therefore think your deliberative and speedy review, 
in a safe way always, of the applications for the two private 
sites is very important so that when we come to some conclusion 
about what we're going to do long term, you will be ready to 
say, okay, now we're ready to move ahead in that direction and 
we won't have to wait 3, 4, 5, 6 years in order to do it.

                     ADDITIONAL COMMITTEE QUESTIONS

    The hearing record will remain open for 10 days. Members 
may submit additional information or questions for the record 
within that time, if they would like.
    The Subcommittee requests all responses to questions for 
the record be provided within 30 days of receipt.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Question Submitted by Senator Patty Murray
    Question. Chairman Svinicki, I continue to closely follow the 
Department of the Navy's plans to decommission the USS Enterprise. In a 
February 22, 2017 written response to me and my colleagues you 
referenced an ongoing discussion between the Nuclear Regulatory 
Commission (NRC) and Naval Reactors regarding the ``technical 
parameters of a potential reimbursable agreement with Naval Reactors'' 
and ``whether such an approach could be applied to specific activities 
associated with naval decommissioning.'' Please provide an update on 
these discussions between the NRC and Naval Reactors?
    Answer. The NRC and Naval Reactors continue to have discussions 
regarding the Navy's plans to decommission the USS Enterprise, 
including the technical parameters of a potential reimbursable 
agreement.
    In addition, we entered into discussions with Naval Reactors 
regarding a separate potential reimbursable agreement to support the 
Navy's plans for decommissioning of the Surface Ship Support Barge.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
    Question. Senator Heinrich and I sent you a letter on April 23rd 
requesting additional public meetings regarding Holtec International's 
permit application in New Mexico.
    The NRC has proposed four public meetings on this issue, one in 
Rockville, Maryland, two in Lea and Eddy counties near the proposed 
site for interim storage, and one in Roswell, New Mexico.
    Constituents in our state, the fifth largest in size in the nation, 
range from Native American tribes concentrated in the north to dairy 
farmers in the southeast, to tourism-related businesses across New 
Mexico, all desiring equal access to NRC public scoping sessions.
    The drive time to Carlsbad from Farmington, in the state's 
northwest corner, takes seven hours. And hotel availability and prices 
there make staying overnight a very limited option.
    From Albuquerque and Santa Fe to Carlsbad, the drive time is nearly 
four and one-half hours--longer than the drive from New York City to 
Washington, D.C.
    From Las Cruces, the second largest city in the state, the drive to 
Carlsbad takes nearly three and a half hours.
    Citizens from all over New Mexico have views that should be taken 
into account during a public scoping period.
    Will the Commission schedule additional meetings beyond the 
immediate area around the site to take into account the views of other 
New Mexicans?
    Answer. Yes. The NRC staff has conducted two additional scoping 
meetings?on May 21, 2018, in the Gallup Downtown Conference Center, and 
on May 22, 2018, at the Crown Plaza Hotel in Albuquerque. NRC staff 
conducted an open house session prior to each meeting where members of 
the public could view informational posters on the proposed project and 
ask questions of the NRC staff. Following the open house, NRC staff 
made a presentation about the review process, while the majority of 
both meetings was devoted to allowing members of the public to make 
statements regarding the proposed facility. Comments received at the 
meetings will be used by the staff to define the scope of its 
environmental review. Spanish-speaking staff were available at each of 
the meetings to assist with translation as needed. Both meetings were 
well attended and the NRC staff extended the time of the meetings to 
ensure that all members of the public were given an opportunity to 
speak. Further, the NRC staff has extended the deadline for submitting 
comments to July 30, 2018, to allow additional time for interested 
stakeholders to submit written comments.
    Question. What lessons did the NRC learn from the interim storage 
licensing process in Utah, where the NRC granted a license many years 
ago but the State of Utah has effectively barred the project from 
moving forward?
    Answer. The NRC staff learned a number of lessons from the Private 
Fuel Storage application review. These lessons learned have been 
incorporated into updated guidance documents that will be used by the 
staff in conducting its review activities for the Holtec application. 
Some examples include the following: the importance of holding public 
meetings near the site early in the process; providing the public with 
an explanation of the licensing and hearing process in addition to the 
environmental review process; and encouraging future applicants to 
consider the importance of taking the time to develop a complete, high-
quality application.
    An NRC-licensed facility may need other Federal, State or local 
permits for a variety of matters outside of NRC's safety and security 
jurisdiction. As a result, those approvals (and any associated 
conditions) may factor into whether a licensee is ultimately able or 
willing to construct and operate a facility.
    Question. I've long believed in the importance of a consent-based 
siting process for both consolidated interim storage and permanent 
disposal of spent nuclear fuel and high-level waste. Without a 
permanent repository, a consent-based process is especially critical 
because interim storage could very well become a de facto permanent 
facility.
    With respect to NRC's evaluation of the two pending applications 
for interim storage, how will the commission assure there is consent at 
all levels for the facility, including state, local and affected Indian 
Tribes?
    Answer. The NRC has an established regulatory framework for the 
licensing of the two proposed interim storage facilities. This 
regulatory framework is distinct from the consent-based siting process 
recommended in the report by the ``Blue Ribbon Commission on America's 
Nuclear Future.'' The NRC's licensing framework is prescribed by the 
authorities and requirements established in the Atomic Energy Act and 
the Nuclear Waste Policy Act, as well as the National Environmental 
Policy Act (NEPA) and the National Historic Preservation Act (NHPA).
    The NRC's regulatory framework and the associated implementing 
procedures are guided by the NRC's principles of good regulation, which 
encourage independence, openness, efficiency, clarity, and reliability. 
The licensing process involves outreach to State, local, and Tribal 
entities as part of the development of an environmental impact 
statement (EIS) in accordance with the NEPA and assist the NRC in 
fulfilling its obligations under the NHPA. The NRC values these 
interactions and routinely gains valuable insights that substantively 
inform the NRC staff's review and resultant documents, such as the EIS.
    Question. The Holtec Environmental Report states on page 155: ``DOE 
would be responsible for transporting SNF from existing commercial 
nuclear power reactor storage facilities to the [Holtec] CIS 
Facility.''
    Since the Nuclear Waste Policy Act gives DOE authority for 
transportation to a repository, but not to a private consolidated 
storage site, are you aware of any authority for DOE to do what Holtec 
states?
    Answer. Although the NRC is not aware of any current DOE authority, 
questions regarding DOE's authority are best addressed by DOE.
    The NRC has just recently docketed and is in the early stages of 
reviewing the Holtec ISFSI application. Therefore, the NRC staff is 
still assessing the details of the application, including those related 
to transportation.

                         CONCLUSION OF HEARINGS

    Senator Alexander. Thank you for being here today.
    The Subcommittee will stand adjourned.
    [Whereupon, at 2:59 p.m., Wednesday, April 25, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]
</pre></body></html>
